ONE SHELL PLAZA
910 LOUISIANA
HOUSTON, TEXAS
77002-4995
TEL +1 713.229.1234
FAX +1 713.229.1522

AUSTIN
BRUSSELS
DALLAS
DUBAI
HONG KONG

HOUSTON

MOSCOW
NEW YORK
PALO ALTO
RIO DE JANEIRO
RIYADH
WASHINGTON

LONDON

March 12, 2021
081864.0118
BY ELECTRONIC FILING

Aaron Michael Streett
TEL +1 713.229.1855
FAX +1 713.229.7855
aaron.streett@bakerbotts.com

Hon. Scott Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Jeffrey Schweitzer, et al. v. Investment Committee of the Phillips 66 Savings Plan,
et al.; No. 20-1255

Dear Mr. Harris:
Petitioners filed a petition for writ of certiorari in the above-captioned matter on
March 8, 2021, and the case was placed on the Court’s docket on March 10, 2021.
Because we believe the case fails to raise an issue for review by this Court,
Respondents hereby waive the right to file a brief in opposition.
If the Court wishes to see a brief in opposition, we will, of course, promptly file
one.
Respectfully submitted,

Aaron M. Streett
Counsel for Respondents Investment Committee of
the Phillips 66 Savings Plan, et al.
cc:

Co-Counsel:
Travis Sales
Mark Bodron
Tina Nguyen
Counsel of Record for Petitioner:
Matthew W.H. Wessler
Gupta Wessler PLLC
1900 L Street, NW
Suite 312
Washington, DC 20036

61525750.1

